TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2011 Statutory Audit of
                        Compliance With Legal Guidelines
                         Restricting the Use of Records of
                             Tax Enforcement Results



                                           July 27, 2011

                              Reference Number: 2011-30-069




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


FISCAL YEAR 2011 STATUTORY AUDIT                       WHAT TIGTA FOUND
OF COMPLIANCE WITH LEGAL
                                                       The IRS achieved full compliance with
GUIDELINES RESTRICTING THE USE                         Section 1204(a) requirements. TIGTA identified
OF RECORDS OF TAX ENFORCEMENT                          no violations of RRA 98 Section 1204(a) in
RESULTS                                                performance evaluation documents for the
                                                       145 employees reviewed. Our review found that
                                                       managers had not included ROTERs in
Highlights                                             employees’ performance evaluation documents.

Final Report issued on July 27, 2011                   Also, the IRS achieved full compliance with
                                                       Section 1204(b) and (c) requirements. The IRS
Highlights of Reference Number: 2011-30-069            evaluated all employees on the fair and
to the Internal Revenue Service Deputy                 equitable treatment of taxpayers and prepared
Commissioner for Operations Support.                   quarterly self-certifications showing whether or
                                                       not ROTERs were used to evaluate employees.
IMPACT ON TAXPAYERS
                                                       In a judgmental sample of 32 employees,
The Internal Revenue Service (IRS)                     nine (28 percent) did not understand the term
Restructuring and Reform Act of 1998 (RRA 98)          “retention standard,” and 13 (41 percent) were
requires the IRS to ensure that managers do            not sure they had received training on the
not evaluate enforcement employees using any           retention standard.
record of tax enforcement results (ROTER) or
                                                       For Fiscal Year 2011, the IRS mandatory
base employee successes on meeting ROTER
                                                       RRA 98 Section 1204 training for managers and
goals and quotas. Based on the results of our
                                                       employees was launched through the Enterprise
sample, TIGTA believes the IRS’s efforts to
                                                       Learning Management System. Training
enforce the employee evaluation requirements
                                                       delivery will be staggered from March 1, 2011, to
under Section 1204 are generally effective and
                                                       September 30, 2011, to accommodate the
are helping to protect the rights of taxpayers.
                                                       operating and functional divisions’ workload.
WHY TIGTA DID THE AUDIT
                                                       WHAT TIGTA RECOMMENDED
TIGTA is required under Internal Revenue
                                                       Although TIGTA made no recommendations in
Code Section 7803(d)(1)(2000) to annually
                                                       this report, IRS officials were provided an
evaluate whether the IRS complies with
                                                       opportunity to review the draft report. IRS
restrictions on the use of enforcement statistics
                                                       management agreed with the report language
under RRA 98 Section 1204. Our review
                                                       and conclusions presented in the report.
determined whether the IRS complied with:
•   Section 1204(a), which prohibits the IRS
    from using any ROTER to evaluate
    employees or to impose or suggest
    production quotas or goals.
•   Section 1204(b), which requires that
    employees be evaluated using the fair and
    equitable treatment of taxpayers as a
    performance standard.
•   Section 1204(c), which requires each
    appropriate supervisor to self-certify
    quarterly whether ROTERs were used in a
    prohibited manner.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 27, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2011 Statutory Audit of Compliance
                             With Legal Guidelines Restricting the Use of Records of Tax
                             Enforcement Results (Audit # 201130011)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with restrictions on the use of enforcement statistics to evaluate employees as set
 forth in the IRS Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 The Treasury
 Inspector General for Tax Administration is required under Internal Revenue Code Section
 7803(d)(1)(2000) to annually evaluate the IRS’s compliance with the provisions of RRA 98
 Section 1204. The RRA 98 requires the IRS to ensure that managers do not evaluate
 enforcement employees2 using any record of tax enforcement results (ROTER) or base employee
 successes on meeting goals and quotas for ROTERs.
 Although we made no recommendations in this report, IRS officials were provided an
 opportunity to review the draft report. IRS management agreed with the report language and
 conclusions presented in the report. Management’s complete response to the draft report is
 included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.



 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
 in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
 provides direction/guidance for Section 1204 program activities.
                        Fiscal Year 2011 Statutory Audit of Compliance With Legal
                       Guidelines Restricting the Use of Records of Tax Enforcement
                                                  Results




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          First-Line and Second-Line Managers Appropriately Completed Their
          Quarterly Self-Certifications ......................................................................... Page 4
          The Internal Revenue Service Is in Full Compliance With the
          Use of Records of Tax Enforcement Results Procedures ............................. Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Prior Audit Reports .............................................................. Page 12
          Appendix V – Manager’s Quarterly Self-Certification – No Violations
          (Form 1204-M) ............................................................................................. Page 14
          Appendix VI – Management’s Response to the Draft Report ...................... Page 15
          Fiscal Year 2011 Statutory Audit of Compliance With Legal
         Guidelines Restricting the Use of Records of Tax Enforcement
                                    Results




                        Abbreviations

FY                Fiscal Year
IRS               Internal Revenue Service
ROTER             Record of Tax Enforcement Results
RRA 98            Restructuring and Reform Act of 1998
TIGTA             Treasury Inspector General for Tax Administration
                   Fiscal Year 2011 Statutory Audit of Compliance With Legal
                  Guidelines Restricting the Use of Records of Tax Enforcement
                                             Results




                                          Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section 1204 restricts the use of enforcement
statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using any record of tax
enforcement results (ROTER) to evaluate employees, or to impose or suggest quotas or goals for
such employees.
The IRS defines ROTERs as data, statistics, compilations of
information, or other numerical or quantitative recordings of             RRA 98 Section 1204(a)
the tax enforcement results reached in one or more cases. A                prohibits the IRS from
ROTER does not include evaluating an individual case to                       using ROTERs to
                                                                           evaluate employees, or
determine if an employee exercised appropriate judgment in                  to impose or suggest
pursuing enforcement of the tax laws. Examples of ROTERs                  quotas or goals for such
include the amount of dollars collected or assessed, the                         employees.
number of fraud referrals made, and the number of seizures
conducted.
RRA 98 Section 1204(b) requires employees to be evaluated using the fair and equitable
treatment of taxpayers as a performance standard. The IRS refers to this standard as the
retention standard. The standard requires employees to administer the tax laws fairly and
equitably; protect all taxpayers’ rights; and treat each taxpayer ethically with honesty, integrity,
and respect. This provision of the law was enacted to provide assurance that employee
performance is focused on providing quality service to taxpayers instead of achieving
enforcement results.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a quarterly self-
certification. In the self-certification, the appropriate supervisor attests to whether ROTERs
were used in a prohibited manner. The IRS defines an appropriate supervisor as the highest
ranking executive in a distinct organizational unit who supervises directly or indirectly one or
more Section 1204 enforcement employees.2 Current IRS procedures require each level of
management, beginning with first-line managers of Section 1204(a) employees, to self-certify as
to whether or not they used ROTERs in a manner prohibited by RRA 98 Section 1204(a). The



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
provides direction/guidance for Section 1204 program activities.
                                                                                                     Page 1
                       Fiscal Year 2011 Statutory Audit of Compliance With Legal
                      Guidelines Restricting the Use of Records of Tax Enforcement
                                                 Results



appropriate supervisor then prepares a consolidated office certification covering the entire
organizational unit.
The IRS functional offices and divisions, including the Office of the Chief, Appeals; the
Office of the Chief, Criminal Investigation; the Large Business and International Division;3 the
Small Business/Self-Employed Division; the Office of the National Taxpayer Advocate; the Tax
Exempt and Government Entities Division; and the Wage and Investment Division, are
responsible for Section 1204 program implementation within their respective areas.
Section 1204 Program Managers and Coordinators in each business organization are available to
provide guidance to managers regarding Section 1204 issues, including the certification process.
Figure 1 depicts the ratio of Section 1204 and Non-Section 1204 managers in the subject
business organizations as of September 30, 2010. The Section 1204 managers either supervised
a Section 1204 employee or provided guidance or direction for Section 1204 activities.
             Figure 1: Number of Section 1204 and Non-Section 1204 Managers
                    by Business Organization (as of September 30, 2010)




    Source: IRS National Section 1204 Program Manager.

Internal Revenue Code Section 7803(d)(1)(2000) requires the Treasury Inspector General for
Tax Administration (TIGTA) to determine annually whether the IRS is in compliance with
restrictions on the use of enforcement statistics under RRA 98 Section 1204. We have
previously performed 12 annual reviews to meet this requirement. Appendix IV lists the prior
audit reports.

3
    Formerly referred to as the Large and Mid-Size Business Division.
                                                                                               Page 2
                  Fiscal Year 2011 Statutory Audit of Compliance With Legal
                 Guidelines Restricting the Use of Records of Tax Enforcement
                                            Results



This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation; the Office of the National Taxpayer Advocate; the Large Business and
International Division; the Small Business/Self-Employed Division; the Tax Exempt and
Government Entities Division; and the Wage and Investment Division during the period
December 2010 through April 2011.
Onsite reviews were performed at the IRS field offices in Denver, Colorado; New York City,
New York; Philadelphia, Pennsylvania; Houston, Texas; and Seattle, Washington. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective. Detailed information on our audit objective, scope,
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                  Fiscal Year 2011 Statutory Audit of Compliance With Legal
                 Guidelines Restricting the Use of Records of Tax Enforcement
                                            Results




                                Results of Review

First-Line and Second-Line Managers Appropriately Completed Their
Quarterly Self-Certifications
All 40 first-line and second-line managers we sampled complied with the provisions of RRA 98
Section 1204(c) and completed the required self-certifications on the use of tax enforcement
results for the second and fourth quarters of Fiscal Year (FY) 2010. Each manager certified
whether or not ROTERs were used when evaluating employees. Appendix V reflects the
Manager’s Quarterly Self-Certification – No Violations (Form 1204-M) that managers use to
self-certify that there are no violations of RRA 98 Section 1204(a) and (b).
RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly, in writing, to the
IRS Commissioner whether ROTERs were used in a prohibited manner. Therefore, managers
who evaluate Section 1204 employees are required to certify in writing that they did not:
   •   Use ROTERs to evaluate employees or to impose or suggest production quotas or goals
       for employees in any performance evaluations, including appraisals, awards, or
       promotion justifications, written or reviewed by the manager.
   •   Verbally communicate to employees that ROTERs affected their evaluations.
   •   Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
       employees or for work unit activities (e.g., through program guidance or business and
       program reviews).
Per the Internal Revenue Manual, the business organization and function Section 1204 Program
Managers and their respective Section 1204 Coordinators should monitor the quarterly
certification process and provide guidance to managers regarding Section 1204 issues throughout
their organizations/functions. Through the quarterly certification process, managers are
reminded of their responsibilities under RRA 98 Section 1204 not to evaluate their employees on
the basis of ROTERs. The quarterly certification process helps to ensure that managers are
aware of the IRS’s commitment to administer the tax laws fairly and to protect the rights of
taxpayers.

The Internal Revenue Service Is in Full Compliance With the Use of
Records of Tax Enforcement Results Procedures
In FY 2010, the IRS achieved full compliance with the RRA 98 Section 1204 employee or
manager performance-related documents reviewed.

                                                                                           Page 4
                        Fiscal Year 2011 Statutory Audit of Compliance With Legal
                       Guidelines Restricting the Use of Records of Tax Enforcement
                                                  Results



To evaluate the IRS’s compliance with Sections 1204(a) and 1204(b), we selected a judgmental
sample of 35 first-line managers and 105 employees in 5 sites.4 The sites selected had at least six
business organizations with Section 1204 first-line
managers. We selected seven managers and three of the
managers’ employees at each site and reviewed their
                                                                 TIGTA auditors reviewed
performance evaluation documents. We also reviewed                 performance-related
performance documents for five second-line managers. We           documents for 145 IRS
evaluated FY 2010 performance-related documents,                        employees.
including mid-year and annual performance reviews,
employee self-assessments, and workload reviews
documentation for 145 employees, to determine whether ROTERs were used when evaluating
employees’ performance.
Based on the results of our review, the IRS’s efforts to ensure that managers are not using
ROTERs to evaluate employees are effective and are helping to protect the rights of taxpayers.
The IRS continues to use its managerial self-certification process to identify and report ROTER
violations. In addition, each manager certified that ROTERs production goals or quotas were not
used when evaluating employees.

Some employees did not understand the retention standard terminology or
receive training
We interviewed a judgmental sample of 32 Section 1204 employees to determine if they received
training and understood the terminology “retention standard.” Nine (28 percent) of the
employees did not understand the term, and 13 (41 percent) of the employees were not sure if
they had received training related to this topic. The first-line managers we sampled documented
that they had evaluated employees on the retention standard. According to RRA 98
Section 1204(b), IRS employees are to be evaluated on the retention standard. The standard
applies to all executives, managers, and other employees.
During our review, the IRS’s Chief Financial Officer updated the Enterprise Learning
Management System courses for Section 1204 managers and employees to receive Section 1204
training, which includes the retention standard. Consideration will be given to change the
frequency of the training to be mandatory every 2 years. The mandatory Section 1204 training
for all managers and employees in all IRS branches began March 1, 2011, and will continue
through September 30, 2011. We are not making any recommendations regarding the ongoing
mandatory Section 1204 training for FY 2011 in order to allow time for the IRS to complete the
training. We will follow up to evaluate the effectiveness of the IRS’s training during our
FY 2012 review.



4
    See Appendix I for details of the IRS offices and five cities selected for review.
                                                                                            Page 5
                 Fiscal Year 2011 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results



On June 16, 1999, the IRS established a retention standard method to ensure that employee
performance is focused on providing quality service to taxpayers instead of on achieving
enforcement results. For all 145 employees sampled, Block 9 of the Bargaining Unit
Performance Appraisal and Recognition Election (Form 6850-BU) or the Non-Bargaining Unit
Performance Appraisal (Form 6850-NBU) was checked, indicating that the employees were
evaluated on this standard. Figure 2 presents a Form 6850-BU pertaining to the retention
standard.
                   Figure 2: Forms 6850 Retention Standard Rating




                                                                                     Block 9 is where
                                                                                     managers should
                                                                                     indicate that
                                                                                     employees were
                                                                                     evaluated on the
                                                                                     retention standard
                                                                                     in compliance with
                                                                                     RRA 98
                                                                                     Section 1204(b).




               Source: Form 6850-BU.

It is important that the IRS ensures employees understand the retention standard because it can
directly affect interactions with taxpayers and the employee’s ability to safeguard taxpayer
                                                                                           Page 6
                    Fiscal Year 2011 Statutory Audit of Compliance With Legal
                   Guidelines Restricting the Use of Records of Tax Enforcement
                                              Results



rights. We reported5 this issue during a prior TIGTA review and the IRS agreed to take
corrective actions. In December 2009, the IRS revised Block 9 of Forms 6850-BU and
6850-NBU to label the retention standard rating as the “Fair and Equitable Treatment of
Taxpayers Retention Standard” and to define the Section 1204(b) standard in the instructions
attached to each of the Forms as part of the corrective action. Based on our results, IRS efforts
to conduct the mandatory Section 1204 training in FY 2011 indicates the IRS is being proactive
in obtaining full compliance with Section 1204 requirements.




5
 Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the Use of Records of Tax
Enforcement Results (Reference Number 2008-40-108, dated April 17, 2008).
                                                                                                        Page 7
                   Fiscal Year 2011 Statutory Audit of Compliance With Legal
                  Guidelines Restricting the Use of Records of Tax Enforcement
                                             Results



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with restrictions
on the use of enforcement statistics to evaluate employees as set forth in RRA 98 Section 1204.1
To accomplish this objective, we:
I.      Selected a judgmental sample of 40 managers from a population of 5,139 first-line and
        second-line managers to determine whether they complied with the provisions of RRA 98
        Sections 1204(a) and 1204(b) when evaluating their Section 1204 employees’2
        performance.
        A. Identified the Office of the Chief Financial Officer; the Office of the Chief, Appeals;
           the Office of the Chief, Criminal Investigation; the Office of the National Taxpayer
           Advocate; the Large Business and International Division;3 the Small Business/
           Self-Employed Division; the Tax Exempt and Government Entities Division; and the
           Wage and Investment Division office locations in various cities and the number of
           Section 1204 first-line managers located in each business organization.
            We judgmentally selected five cities for this year’s audit. Onsite reviews were
            performed at the IRS field offices in Denver, Colorado; New York City, New York;
            Philadelphia, Pennsylvania; Houston, Texas; and Seattle, Washington. We used
            FY 2010 data to select the audit sites for the sample. The audit sites were
            judgmentally selected based on the number of Section 1204 first-line managers
            located at a site and the business organizations represented, prior audit coverage in
            FYs 2004 through 2010,4 geographical location of potential cities for travel
            considerations, and sites where the IRS internal review team identified problems.
        B. Selected a judgmental sample of seven first-line managers per city and three
           Section 1204 employees for each manager in our sample. We selected managers and
           employees from five sites that had at least six business organizations with
           Section 1204 first-line managers who had not been reviewed recently by the TIGTA
           or IRS independent reviews. This provided a total of 35 managers and

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
provides direction/guidance for Section 1204 program activities.
3
  Formerly referred to as the Large and Mid-Size Business Division.
4
  We reviewed locations visited during prior audits to ensure locations selected were not duplicated.
                                                                                                     Page 8
                 Fiscal Year 2011 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results



           105 employees for review. We obtained the FY 2010 performance evaluation
           documents prepared by the manager (including mid-year performance reviews,
           annual performance reviews, and workload reviews) to determine whether ROTERs
           were used in the evaluation process and employees were evaluated appropriately on
           the fair and equitable treatment of taxpayers.
       C. Determined that training records did not have to be reviewed as no ROTERs had been
          found in managers or employees evaluations or self-assessments.
       D. Interviewed a judgmental sample of 32 Section 1204 employees concerning the use of
          ROTERs and their understanding of the retention standard. We judgmentally selected
          32 employees from the IRS sites visited. The overall population could not be
          determined because the sample was selected based on the employees in the office the
          day of our visits. If available, new employees were interviewed as well.
       E. Selected and reviewed a judgmental sample of five second-line managers’
          management performance evaluation documentation (i.e., mid-year performance
          reviews, annual performance reviews) for the inappropriate use of ROTERs. We
          focused on second-line managers whose performance documentation was located in
          the same cities as the first-line managers for each of the five sites selected for review.
II.    Determined whether the 40 selected first-line and second-line managers complied with
       RRA 98 Section 1204(c) by certifying by letter whether or not ROTERs were used in a
       manner prohibited by RRA 98 Section 1204(a).
       A. Obtained FY 2010 second and fourth quarter self-certifications for the selected
          first-line managers.
       B. Reviewed the self-certifications for compliance with IRS procedures.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: guidelines and rules related to using
ROTERs in a way as to improperly influence the handling of taxpayer cases and employees
understanding and adherence to the retention standard. We evaluated these controls and
reviewed judgmental samples of performance appraisals and signed self-certifications to
determine whether the IRS complied with restrictions on the use of enforcement statistics when
evaluating its employees.




                                                                                             Page 9
                Fiscal Year 2011 Statutory Audit of Compliance With Legal
               Guidelines Restricting the Use of Records of Tax Enforcement
                                          Results



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Jones, Director
L. Jeff Anderson, Audit Manager
Paul Baker, Lead Auditor
Andrea Barnes, Senior Auditor
Margaret Filippelli, Senior Auditor
Carol Gerkens, Senior Auditor
Gwendolyn Green, Senior Auditor
Lynn Ross, Senior Auditor
Nancy Vanhouten, Senior Auditor Evaluator




                                                                                      Page 10
                Fiscal Year 2011 Statutory Audit of Compliance With Legal
               Guidelines Restricting the Use of Records of Tax Enforcement
                                          Results



                                                                            Appendix III

                         Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE: LB
Commissioner, Small Business/Self-Employed Division SE: S
Commissioner, Tax Exempt and Government Entities Division SE: T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP:TP:SS
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO
       National Taxpayer Advocate TA




                                                                                    Page 11
                 Fiscal Year 2011 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results



                                                                              Appendix IV

                              Prior Audit Reports

The TIGTA has previously performed 12 audits in this subject area. The audit reports were:
   Fiscal Year 2010 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2010-30-076, dated
   July 23, 2010).
   Fiscal Year 2009 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2009-30-091, dated
   June 30, 2009).
   Fiscal Year 2008 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2008-40-108, dated
   April 17, 2008).
   Fiscal Year 2007 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2007-40-055, dated
   March 20, 2007).
   Fiscal Year 2006 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2006-40-095, dated
   June 6, 2006).
   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2005-40-157, dated
   September 21, 2005).
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2004-40-066, dated
   March 19, 2004).
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2003-40-090, dated
   March 27, 2003).
   Compliance With Regulations Restricting the Use of Records of Tax Enforcement
   Results Shows Improvement (Reference Number 2002-40-163, dated September 11,
   2002).




                                                                                       Page 12
             Fiscal Year 2011 Statutory Audit of Compliance With Legal
            Guidelines Restricting the Use of Records of Tax Enforcement
                                       Results



Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998
Section 1204 Has Not Yet Been Achieved (Reference Number 2001-10-178, dated
September 27, 2001).
Further Improvements Are Needed in Processes That Control and Report Misuse of
Enforcement Statistics (Reference Number 2000-10-118, dated September 18, 2000).
The Internal Revenue Service Should Continue Its Efforts to Achieve Full Compliance
with Restrictions on the Use of Enforcement Statistics (Reference Number
1999-10-073, dated September 29, 1999).




                                                                                    Page 13
                    Fiscal Year 2011 Statutory Audit of Compliance With Legal
                   Guidelines Restricting the Use of Records of Tax Enforcement
                                              Results



                                                                    Appendix V

              Manager’s Quarterly Self-Certification –
                  No Violations (Form 1204-M)




Source: Internal forms on the IRS web site.

                                                                          Page 14
     Fiscal Year 2011 Statutory Audit of Compliance With Legal
    Guidelines Restricting the Use of Records of Tax Enforcement
                               Results



                                                     Appendix VI

Management’s Response to the Draft Report




                                                           Page 15
